HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-01-02625)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-01-02625)
February 18, 2003
Complete Text of Report is available in PDF format
(455 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness
of Adminastar Federal, Inc.'s claims processing system in identifying payment
reductions for multiple ambulatory surgical center procedures for calendar years
1997 through 2001.  Regulations require that when multiple services are
provided in the same operative session, the highest paying procedure is reimbursable
at the full payment rate while the other procedures are reimbursable at one-half
the normal payment rate.  Our analysis showed that Adminastar Federal,
Inc.s systems failed to identify such instances, which resulted in provider
overpayments for calendar years 1997 through 2001of approximately $21,708, $74,521,
$80,749, $76,273, and  $115,761 ($369,012), respectively.  Included
in the identified overpayments is approximately $77,297 in beneficiary overpayments
for coinsurance.  Most of the overpayments occurred because the carriers
processing system did not identify multiple procedures performed during the
same session when submitted on separate claims.